APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

7.25%, 10.25% or 14.25%, when you open your account, based

on your creditworthiness. This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

10.25%, 14.25% or 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

10.25%, 14.25% or 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

Penalty APR and When it Applies

18.00%
This APR may be applied to your account if you:
- Make a late payment
- Make a payment that is returned
How Long Will the Penalty APR Apply? If your APRs are increased for this reason, the
Penalty APR will apply until you make six (6) consecutive minimum payments when due.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

3.00% of each transaction in U.S. dollars

Up to $27.00
Up to $27.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Application of Penalty APR:
Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making a payment or make a payment that is returned. If your APRs
are increased for this reason, the Penalty APR will apply until you make six (6) consecutive minimum payments when due.
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 1, 2020. This information may have changed after that
date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the VISA Platinum is a secured credit card. Credit extended under this credit card account is secured by
various personal property and money including, but not limited to: (a) any goods you purchase with this account, (b) any shares
you specifically pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint
account with the Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose special
tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered borrower under the
Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant us but will not be secured by all
shares you have in any individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i)
you establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Up to $27.00 or the amount of the required minimum payment, whichever is less,
if your payment has not been received by the third calendar day of the month
Returned Payment Fee:
Up to $27.00 or the amount of the required minimum payment, whichever is less.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

$7.00.
d Replacement Fee:

02105204-MXC10-C-1-062117 (MXC101-E)

